HHS/OIG, Audit - "Graduate Medical Education for Dental Residents Claimed
by  St. Luke's Episcopal Hospital for Fiscal Years 2000 Through 2002,"
(A-04-04-06004)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Graduate Medical Education for Dental Residents
Claimed by  St. Luke's Episcopal Hospital for Fiscal Years 2000 Through
2002," (A-04-04-06004)
September 27, 2006
Complete Text of Report is available in PDF format (787 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether St. Luke’s Episcopal Hospital (the Hospital) included the appropriate number of dental residents in its full-time equivalent (FTE) resident counts when computing Medicare graduate medical education (GME) payments for fiscal years 2000 through 2002. The Hospital inappropriately included dental residents in its direct and indirect FTE counts used to compute FY 2002 GME payments. The Hospital included FTEs (1) for dental residents not in an approved residency program and (2) for dental residents who had exceeded their initial residency period. The Hospital overstated its direct and indirect GME claims by $19,528 for FY 2002. We recommended that the Hospital: (1) file amended cost reports that will result in a refund of $19,528; (2) establish and follow written procedures to ensure that the FTE counts for residents in nonhospital settings include only those FTEs in approved programs and that the FTE counts for residents who exceed their initial residency period are weighted; (3) determine whether errors similar to those identified in our review occurred in Medicare cost reports after FY 2002 and refund any overpayments; and (4) work with the Centers for Medicare & Medicaid Services to resolve the $103,843 related to FY 2002 FTEs for the didactic time of residents assigned to nonhospital settings. Hospital officials agreed with those recommendations.